<html>
<title> - RECYCLING ELECTRONICS:. A COMMON SENSE SOLUTION FOR. ENHANCING GOVERNMENT EFFICIENCY AND PROTECTING OUR ENVIRONMENT</title>
<body><pre>[Senate Hearing 113-759]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-759

                 RECYCLING ELECTRONICS: A COMMON SENSE
                    SOLUTION FOR ENHANCING GOVERNMENT 
                 EFFICIENCY AND PROTECTING OUR ENVIRONMENT

=======================================================================

                                HEARING

                              BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

                           FEBRUARY 27, 2014

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                           U.S. GOVERNMENT PUBLISHING OFFICE
88-277PDF                       WASHINGTON : 2015                           
________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
            Deirdre G. Armstrong, Professional Staff Member
                   Jonathan M. Kraden, Senior Counsel
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
                 David Z. Demirbilek, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
Prepared statements:
    Senator Carper...............................................    27
    Senator Levin................................................    29

                               WITNESSES
                      Thursday, February 27, 2014

Kevin Kampschroer, Director, Office of Federal High-Performance 
  Green Buildings, Office of Governmentwide Policy, U.S. General 
  Services Administration........................................     3
Thomas G. Day, Chief Sustainability Officer, U.S. Postal Service.     5
Brenda Pulley, Senior Vice President of Recycling, Keep America 
  Beautiful......................................................     7
Walter L. Alcorn, Vice President, Environmental Affairs and 
  Industry Sustainability, Consumer Electronics Association......     9
Stephen Skurnac, President, Sims Recycling Solutions, Inc........    11

                     Alphabetical List of Witnesses

Alcorn, Walter L.:
    Testimony....................................................     9
    Prepared statement with attachment...........................    44
Day, Thomas G.:
    Testimony....................................................     5
    Prepared statement...........................................    35
Kampschroer, Kevin:
    Testimony....................................................     3
    Prepared statement...........................................    30
Pulley, Brenda:
    Testimony....................................................     7
    Prepared statement...........................................    39
Skurnac, Stephen:
    Testimony....................................................    11
    Prepared statement...........................................   109

                                APPENDIX

Additional statements for the Record from:
    Electronics TakeBack Coalition...............................   112
    Institute of Scrap Recycling Industries......................   115
    Umicore USA, Inc.............................................   121
    Urban Mining Co..............................................   125

 
                         RECYCLING ELECTRONICS:.
                      A COMMON SENSE SOLUTION FOR.
     ENHANCING GOVERNMENT EFFICIENCY AND PROTECTING OUR ENVIRONMENT

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2014

                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:01 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senator Carper.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order.
    Good afternoon. I want to thank our witnesses and our 
staffs for your flexibility. I think originally we were going 
to have this hearing in the morning, and then we were going to 
have it later in the afternoon. Now, we are going to have it 
now.
    Unfortunately, they do not let Dr. Coburn and I decide when 
there are going to be votes on the floor. There are a bunch of 
votes that start at 2 o'clock, maybe 5 or 6 of them in a row. 
So that kind of messes things up, the way we originally 
scheduled it.
    So thanks for bearing with us and for being so flexible.
    I will ask that my statement be entered into the record.\1\ 
Since there is no one to object, that will happen.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 27.
---------------------------------------------------------------------------
    But I would just say very briefly that this is an issue 
that is very close to my heart. I started recycling because a 
lieutenant junior grade in the Navy, who was a naval flight 
officer (NFO) stationed at Moffett Field, California, lived in 
Palo Alto, when he went overseas, and used to recycle stuff 
right there in Palo Alto. Took it to an old garage where they 
took newspapers and bottles and cans and stuff over time.
    However, they would not recycle computers. They would not 
recycle cell phones. They would not recycle BlackBerrys, 
iPhones, or iPads. And we did not have them. Now we have a lot 
of them.
    And the question is, what do we do when they get old and 
cannot be used? Or, maybe they just go out of style.
    And it is a challenge, but in the words of Albert Einstein, 
``In adversity, lies opportunity.'' There is great opportunity 
here to not just mine, if you will, discarded electronics, but 
to find value in it.
    I will just tell one quick story. When I was Governor of 
Delaware and in the National Governors Association (NGA), we 
were always looking at other States to see what we could learn 
from them and steal their best ideas, and hopefully, they would 
steal some of ours.
    I learned of a good idea they were doing out in the 
California prison system. They would have some of their inmates 
that would be trained to take used computers, upgrade them and 
then do something else with them.
    We took their idea, and we used it. We have a lot of banks 
in Delaware. We asked them, when you have to discard your old 
computers or laptops, how about donating them to the State of 
Delaware? We will have trained inmates in our prisons who will 
upgrade them, and then we will distribute them to our schools.
    And, when I stepped down as Governor, we had the best ratio 
of students to computers of any State in America. And we had 
people who were inmates who worked in upgrading computers and 
had a new job skill. Some saved some money because they got 
paid for doing a little bit of this. So it worked on a lot of 
different levels.
    Who is here from the Postal Service?
    Mr. Day, as you know, the Committee has jurisdiction over 
the Postal Service. Dr. Coburn and I and our colleagues have 
spent a whole lot of time, trying to make a path forward for 
the Postal Service, and I will just say this and stop.
    I think part of the secret to ensuring that the Postal 
Service will not just be around, hanging on, but making sure 
they are relevant and robust, is to find ways to use what is 
unique about the Postal Service; it goes to every mailbox in 
America five, usually six, days a week. Nobody else does that.
    And, to find ways to use what is unique about the Postal 
Service, that distribution network, to generate revenues.
    And I think we are going to hear today about maybe a good 
idea, and we are excited about that.
    So, having said all of that, some of my other colleagues 
may join us here. Votes start at 2 o'clock, but we have 
compressed these two panels into one. You look good.
    And I am not even going to give you formal introductions. 
We will just save the time, if you will, and we will do those 
for the record.
    But, Kevin, we are happy to see you and grateful for your 
participation today, and we would like for you to lead off, 
please. Thank you.

TESTIMONY OF KEVIN KAMPSCHROER,\1\ DIRECTOR, OFFICE OF FEDERAL 
  HIGH-PERFORMANCE GREEN BUILDINGS, OFFICE OF GOVERNMENTWIDE 
          POLICY, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Kampschroer. Good afternoon, Chairman Carper and 
Members of the Committee when they arrive. My name is Kevin 
Kampschroer, and I am the Deputy Senior Sustainability Official 
at the U.S. General Services Administration (GSA). Thank you 
for inviting me to testify about electronics recycling and the 
opportunities that this area provides for increased 
environmental stewardship by the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kampschroer appears in the 
Appendix on page 30.
---------------------------------------------------------------------------
    E-waste is the largest growing waste stream in the country. 
According to the most recent estimates, more than 5 million 
tons of electronics were in storage, nearly half was ready for 
end-of-life management, and yet, only 25 percent were collected 
for recycling.
    The Administration is committed to reducing e-waste and 
realizing efficiency by standardizing procedures across the 
government. As the world's largest consumer of electronics, e-
waste is a significant opportunity for the Federal Government. 
Acting under the President's Executive Order (EO) 13514, 3 
agencies led an Interagency Task Force on Electronics 
Stewardship. They are the General Services Administration, the 
Environmental Protection Agency (EPA) and the White House 
Council on Environmental Quality (CEQ). The President charged 
the task force with developing a national strategy for 
electronic stewardship, which the task force released on July 
20, 2011.
    Today, I look forward to discussing the development of the 
strategy, its important tenets, and our work to help address 
this critical challenge.
    The General Services Administration has always had programs 
for the disposal of equipment, including electronics, but these 
programs were not designed with the specific challenges of e-
waste in mind.
    The 16 agencies on the task force hosted several listening 
sessions with electronics manufacturers and recyclers, with 
nongovernmental organizations, with State and local 
governments, and with Federal agencies. We solicited public 
comments and addressed all of these in the strategy issued on 
July 20. The strategy details the management of electronics 
throughout the products' life cycle, from design to eventual 
reuse or recycling.
    Several items are being addressed over the coming years--
issuance of governmentwide policy and guidance on the reuse and 
disposal of electronics, including acquisition of electronics 
that are more sustainable, can be easily reused and are 
designed to have minimal end-of-life environmental impact, and 
transparency of newly collected Federal data about this.
    On February 29, 2012, we published a bulletin in the 
Federal Management Regulations, presenting a specific list of 
options to consider when electronics are identified as no 
longer meeting their original use. First, offer them to other 
Federal agencies for reuse through GSAXcess, a program that we 
run, or transfer them to schools and other educational 
organizations through the Computers for Learning program. 
Second, donate them to State and local governments and 
nonprofit organizations. Third, sell or return the electronics 
to the original vendor. We are incorporating these take-back 
provisions into many of our contracts, and we are also 
developing governmentwide guidance about doing that for other 
agencies. Fourth, direct nonfunctional electronics to a third-
party certified electronics recycler and not landfills or 
incinerators. All electronics recyclers listed on schedules 
today are third-party certified.
    Another goal of the strategy is to promote the purchase of 
green electronics to reduce their life cycle environmental 
impact. We will continue to improve our contract vehicles in 
order to simplify Federal agencies' acquisition of green 
electronics.
    Currently, there are over 120,000 Energy Star products 
offered across several schedules. Used and refurbished 
electronics are also offered on schedules.
    We have developed two online tools to help agencies find 
products that meet the goals. GSA Advantage uses icons such as 
the Energy Star, and the Green Procurement Compilation tool 
which consolidates all sustainable products designated for 
Federal procurement preference--Energy Star, bio-preferred and 
so on--and they show where to buy the product and how to find 
vendors.
    We have been deploying Energy Star servers and work 
stations since 2001 in the General Services Administration. 
Servers and personal computers have been Electronic Product 
Environmental Assessment Tool (EPEAT)-compliant since 2005 and 
EPEAT-Gold since 2009.
    A crucial part of this strategy is the collection and use 
of consistent, reliable data about electronics. Although many 
e-waste recycling programs exist, there are no guidelines 
across the Federal Government to measure their use 
governmentwide.
    We will publish a proposed rule for public comment next 
week, which already includes a requirement for agencies to 
submit data for all disposed electronics. This data, which 
could be publicly available on data.gov, would provide greater 
transparency into Federal Agencies' performance against the 
goals of the strategy and provide access to business 
opportunities to multiple parties.
    The Federal Government, as the largest purchaser of 
information technology (IT) in the world, has a unique 
responsibility to be a leader in the management and disposal of 
electronics. We play an important role in helping agencies meet 
the goals set forth in the National Strategy for Electronics 
Stewardship and through policy guidance and responsible 
acquisition, donation and disposal of electronics.
    We have a lot more work ahead of us and hope to continue to 
make progress on this important issue.
    I am pleased to be here with you today, and I am happy to 
answer any questions you may have. Thank you.
    Chairman Carper. Thank you so much.
    Do you pronounce your last name, Kampsure?
    Mr. Kampschroer. I do. Thank you.
    Chairman Carper. Why?
    Mr. Kampschroer. It is----
    Chairman Carper. I look at it, and it looks like 
Kampshrower.
    Mr. Kampschroer. Well, it is a German-Dutch name, and 
when----
    Chairman Carper. They just mispronounced it, right?
    Mr. Kampschroer. Yes, my grandfather moved to this country, 
and it seemed simpler to just slur over a lot of letters. So it 
is Kampsure like New Hampshire. Oh, that is good.
    Mr. Kampschroer. Thank you.
    Chairman Carper. Well, maybe we will have a Senator here, 
and she will know how to pronounce your name--Senator Ayotte.
    OK, Mr. Day. Your first name is Thomas. I got that one 
down. Day is a pretty good one, too.
    We are excited that you are here.
    Mr. Day. Thank you.
    Chairman Carper. Happy to learn about the Postal Service 
and what the Postal Service might do here to make a few extra 
bucks and do a good public deed. Thank you.

 TESTIMONY OF THOMAS G. DAY,\1\ CHIEF SUSTAINABILITY OFFICER, 
                      U.S. POSTAL SERVICE

    Mr. Day. Thank you. Good afternoon, Chairman Carper, and 
thank you for calling this important hearing on recycling 
electronics.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Day appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    My name is Thomas Day, and I am the Chief Sustainability 
Officer for the United States Postal Service (USPS).
    Working closely with departments throughout the Postal 
Service, our vendors and the mailing industry, my team sets 
policies and assists in areas of environmental compliance, 
sustainability and energy initiatives.
    I am pleased to be here today to provide an overview of the 
USPS BlueEarth Federal Recycling Program. This new program 
offers participating Federal agencies and their employees a 
free and easy solution to securely and efficiently recycle 
unwanted lightweight electronic devices in an environmentally 
friendly way.
    Chairman Carper. When you say lightweight, what are we 
talking about, if you can tell me what would be lightweight and 
what would not?
    Mr. Day. Under 20 pounds.
    Chairman Carper. Thank you.
    Mr. Day. Improper disposal of electronic waste is an 
acknowledged worldwide environmental problem, and this program 
aims to increase the percentage of used electronics that are 
recycled.
    Federal agencies can enroll in the BlueEarth Recycling 
Program to recycle unwanted electronics, free of charge, 
throughout the mail. Examples of items eligible for recycling 
include cell phones and their accessories, laptops, tablets, 
and cameras and, as I already indicated, up to the weight of 20 
pounds. This program is designed to supplement an agency's 
existing recycling program. Currently, there are 11 
participating Federal agencies in the program. There is no cost 
to the agencies to implement this program, and it is a very 
simple process for them to launch it on a national level. The 
program has two components. Agencies can recycle government-
owned electronics, and employees of participating agencies can 
dispose of their own personal electronics.
    The BlueEarth Recycling Program is web-based. An employee 
from a participating agency selects their agency name and their 
device information on a website. The individual then packages 
the device and prints a shipping label, free of charge, from 
the website. The shipping includes free package tracking. In 
the course of normal delivery, a postal letter carrier picks up 
the package while completing his or her route, a certified 
recycler receives the item, wipes the data as appropriate and 
ensures it is either securely recycled or prepared for resale 
opportunities. The recycler receives the residual value of the 
recycled product, which funds the transportation costs via the 
U.S. Mail to the recycler's destination.
    The recycler is responsible for removing the data 
associated with electronic devices, wiping the data in 
accordance with the data sanitization standards of the National 
Association of Information Destruction (NAID) as well as the 
Department of Defense (DOD) standards. A certificate is issued 
confirming such an action takes place.
    Through the BlueEarth Recycling Program, Federal agencies 
receive recycling activity. They get the reports with data to 
assist them in meeting the documentation requirements of 
Executive Order 13514.
    USPS BlueEarth is a branded suite of customer services and 
product initiatives from the Postal Service, designed to 
provide sustainability solutions and innovations to our 
customers. The Postal Service is perfectly positioned for this 
program because we are using existing processing, 
transportation and delivery networks, making it a financially, 
as well as an environmentally, efficient way to recycle.
    The BlueEarth Recycling Program was launched in April 2013, 
and while we are encouraged by the number of agency agreements 
that we have signed thus far, the participation in the program 
has been low. Rather than continuing to pursue additional 
participating agencies, our focus is on developing promotional 
materials to expand the use of the program at the existing 
agencies.
    So far, in fiscal year (FY) 2014, the BlueEarth Recycling 
Program collected and recycled approximately 15,000 items. The 
most popular items being recycled have been printer and toner 
cartridges, smartphones, and laptops. The most active agencies 
have been the Postal Service followed by the Department of 
Energy (DOE) and the Department of the Interior.
    A study commissioned by the Postal Service showed a large 
potential market for electronics recycling by mail. There are 
some hurdles that stand in the way of full potential. Current 
law restricts the work the Postal Service can do with 
commercial entities and State and local governments. Pending 
Senate postal reform legislation would allow potential 
expansion of the program to the State, local and tribal 
government level.
    Mr. Chairman, we look forward to working with you and the 
rest of the Committee to expand recycling efforts and 
especially take advantage of the Postal Service's existing 
processing, transportation and delivery network.
    This concludes my remarks, and I would be pleased to answer 
any questions.
    Chairman Carper. Thank you so much.
    Brenda Pulley, welcome. How are you?
    Ms. Pulley. Thank you. Delighted to be here, sir.
    Chairman Carper. Very nice to see you.

    TESTIMONY OF BRENDA PULLEY,\1\ SENIOR VICE PRESIDENT OF 
               RECYCLING, KEEP AMERICA BEAUTIFUL

    Ms. Pulley. So thank you. Thank you for your interest in 
recycling and for holding the hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Pulley appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    In a society where each of us generate 4.4 pounds of trash 
each day, there is a critical need to raise awareness and, 
ultimately, provide the motivation to change behaviors to 
position recycling as a daily social norm.
    So, obviously, I am Brenda Pulley, Vice President of 
Recycling at Keep America Beautiful (KAB), and on behalf of KAB 
we appreciate the opportunity to reignite the dialogue on 
recycling and share information on how to increase recycling 
participation.
    We are a leading national nonprofit that has been around 
for 60 years. We take public spaces and work to transform them 
to beautiful places. Recycling is one of those issues. We were 
founded over 60 years ago, and our work is based on executing 
actionable strategies in environmental education and behavior 
change.
    So a challenge that spurs our work is the fact that the 
national recycling rate hovers at 34 percent. We have estimates 
here on electronics recycling. Whatever the exact number is we 
believe the recycling rates could and should be much higher.
    While recycling is considered one of the easiest 
environmental behaviors to perform and one on which survey 
after survey individuals indicate it is something they want to 
do, it does have complexities.
    Recycling electronics, like other materials, always relies 
on an individual taking an action, and so we ask ourselves, 
what can we do to make recycling easier and to make it second 
nature?
    Behavioral psychologists indicate that recycling behavior 
can be positively influenced, and further, there is research 
that has been done to date on how to identify factors that most 
effectively encourage recycling behavior.
    So summarizing the research, surveys, and on-the-ground 
work done to date, we at KAB categorized the following three 
areas as the greatest opportunities for improvement--
convenience, communication and cause.
    And, by cause, I mean, what can we do to make recycling 
matter?
    So, clearly, addressing the convenience factor has the 
greatest opportunities to increase participation. It is helpful 
to offer recycling opportunities that are proximate to the 
behavior--where that material is generated. Briefly a used 
beverage can--for example, consumption occurs at places like a 
sports fields and offices, so set the recycling bin near where 
the recyclable is generated.
    But, for electronics, the challenge is greater. You are now 
trying to capture material that may have been purchased 7 
years, 7 months, but not 7 minutes, ago. So the creation of 
easy access to recycling, such as retail locations and the 
Postal Service, where consumers go to replace their obsolete 
electronics, is an excellent example of overcoming that 
convenience barrier. Special collection events have also proven 
successful for electronics. You have a specific date, a 
specific time, and there is usually good promotion around it.
    Another key factor is communication. So consumers need to 
know what is recycled in their community. They want easily 
accessible information on where, when and what to recycle.
    But, while information can make it easier to recycle, there 
is evidence that increasing knowledge does not mean individuals 
are motivated to engage in that behavior. So behavioral 
psychologists recommend that information and knowledge is also 
combined with a cause, and by that, we mean striking that 
emotional chord with consumers.
    So, at Keep America Beautiful, that is the approach we have 
taken and particularly in our most recent efforts. In 
partnership with the Advertising Council, we recently released 
a national advertising campaign to motivate Americans to 
recycle more. Based on the research, we learned that when 
people understood that their garbage can become something else, 
something new, they are more likely to take the extra step to 
recycle.
    So I invite you to take a look at the campaign. The theme 
is all about ``I want to be recycled'' and gives examples of 
what materials can become.
    In addition to convenience, communication and cause, there 
are other known strategies. I will not go into all those except 
mention one--social modeling or norming. For example, in a 
study conducted among 600 households on curbside recycling, 
when residents were provided with what we call descriptive 
normative feedback--so, in other words, they were told about 
the number of residents that participated in recycling and the 
quantity of material that was recycled--there was a 19 percent 
increase in recycling among the residents.
    For Members of this Committee--and I know you live and 
breathe this--Mr. Chairman as a public official you have a 
powerful role to lead by example and to be seen recycling and 
to be talking about recycling in a very positive way with your 
colleagues and constituents. I know you do, and I thank you.
    Electronics recycling has one additional unique aspect that 
I want to talk about that influences recycling, and that is 
electronics have a perceived value. That perceived value causes 
people to want to store their old electronics--their 
television, their computer, their printer--in basements and 
garages rather than readily recycle them.
    So we do need to identify ways to overcome this barrier, 
and prompting about recycling when purchasing a new laptop or 
printer, or putting prompts on packaging or new product 
instructions, or having that salesperson prompt the new 
purchaser on the recycling of obsolete products are all 
important steps in that.
    I take the example of the Dell and Goodwill partnership. 
They partnered in an attempt to address both convenience and 
the perceived value. Not only is it more convenient for 
donators to bring along their used electronics for donation, as 
they are dropping off their household items also they know they 
are going to be put to good use.
    So, look, recycling is a simple action, but there are 
complexities around it.
    Thank you for holding the hearing. We look forward to 
working with you and your staff on ways that we can overcome 
these barriers and increase recycling. Thank you, Senator.
    Chairman Carper. Thank you so much and thanks for your 
leadership and for those who preceded you 60 years ago.
    Mr. Day. Thank you.
    Chairman Carper. Walter Alcorn, it is very nice to see you. 
Thanks so much.
    You have a tough act to follow, the three of these, but you 
are the warm-up act for Stephen here.
    All right, please proceed.

TESTIMONY OF WALTER L. ALCORN,\1\ VICE PRESIDENT, ENVIRONMENTAL 
   AFFAIRS AND INDUSTRY SUSTAINABILITY, CONSUMER ELECTRONICS 
                          ASSOCIATION

    Mr. Alcorn. Thank you very much, Senator Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alcorn appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    My name is Walter Alcorn. I am the Vice President at the 
Consumer Electronics Association (CEA).
    CEA represents more than 2,000 companies who make, sell and 
install consumer electronics (CE)--so televisions, computers, 
tablets, the range of consumer electronics. Many of our members 
are also deeply involved in the recycling of those products, 
and I appreciate very much the opportunity to testify today on 
behalf of the industry.
    Most consumer electronics products contain valuable 
materials such as metals, plastics and other things that can be 
resold in the commodity markets by recyclers, like the one on 
my left.
    Consumer electronics manufacturers and retailers recognize 
the importance of recycling and support electronics recycling 
efforts like never before. In April 2011, a dozen leading 
consumer electronics companies announced the eCycling 
Leadership Initiative.
    And we also issued an unprecedented national challenge to 
recycle responsibly 1 billion pounds of electronics annually by 
2016--something we are calling the billion-pound challenge. 
This represents a threefold increase over recycling amounts in 
2010.
    In 2013, last year, we reported 580 million pounds of 
consumer electronics recycled responsibly by our industry in 
third-party certified facilities, and that is an increase of 25 
percent over the previous year. In order to get this, it 
requires collection locations, and our industry has sponsored 
more than 8,000 ongoing public collection locations around the 
country, all of which can be found in an online zip code 
locator that CEA sponsors, called GreenerGadgets.org.
    We also have done public service announcements for 
television and radio, reached out to consumers through 
traditional and social media on numerous occasions, and 
incorporated implementation of a national recycling system into 
our organizational goals at CEA.
    But there are challenges.
    Challenge No. 1 I will mention is collection. According to 
our own research at CEA, the average household contains 28 
distinct electronic devices, and reaggregating those devices 
whenever they are ready to be recycled is a tremendous 
challenge. It is a very big issue.
    But there are two other challenges I would like to note 
today that are more recent.
    First of all is the patchwork of diverging state 
electronics recycling programs and laws. Exactly half of the 
U.S. States have enacted some form of electronics recycling 
mandate, and unsurprisingly, no two States have the same 
program. For consumer electronics manufacturers, there are now 
21 separate registration forms to fill out, 19 different annual 
State registration fees to pay, 15 State-specific annual 
recycling reports to file and all with different calendars and 
deadlines, and lots of wasted energy on administrative 
requirements.
    The second challenge I will mention is the market for 
Cathode Ray Tube glass (CRTs). Until about a decade ago, this 
was the most common technology used for displays like 
televisions and computer monitors. However, CRT sales have 
plummeted with new products entering the market with better 
technologies.
    And it used to be that as many old CRTs you could collect 
for recycle you could recycle into new CRT products, but 
obviously, since new CRT sales have waned, so has the demand 
for old CRTs to recycle.
    So CEA--and this is in our written testimony--has embarked 
upon several projects in order to help facilitate the 
development of demand and markets for CRT glass, but there is a 
lot more that needs to be done.
    And, in terms of recommendations, CEA recommends the 
creation of a national harmonized industry-driven framework for 
recycling consumer electronics to facilitate more efficient 
electronics recycling. A national framework should be 
structured to maximize the use of market forces and ensure a 
level playing field that is implemented fairly across consumer 
electronics manufacturers.
    Also, it should incorporate the ideal of shared 
responsibility as a key system function for things like 
collection and consumer education, and also, should ensure that 
recycling is done responsibly and results, probably most 
importantly, in convenient collection opportunities for the 
consumer.
    In lieu of a blanket Federal mandate, CEA recommends a 
Federal framework that authorizes implementation of a 
harmonized cross-State consumer electronics recycling system in 
which specific States mutually agree with the consumer 
electronics industry to enact such a program. CEA and its 
members are working to develop the infrastructure to do this, 
and we look forward to working with this Committee and Congress 
in order to make that a reality nationwide.
    And, second, I will also recommend that the Federal 
Government should continue to set a good example by ensuring 
that all Federal electronics are responsibly recycled. And to 
help address shortfalls in the CRT recycling market, the 
Federal Government should step up procurement of materials such 
as recycled CRT glass whenever the economies make sense and, 
also, when it is safe and environmentally sound and the 
function of those recycled materials meets government 
specifications.
    Thank you very much for the opportunity to testify today.
    Chairman Carper. Thank you.
    Do you pronounce your name Skurnac?
    Mr. Skurnac. Yes, sir.
    Chairman Carper. Skurnac, OK. Great. Thank you.
    Welcome, Mr. Skurnac.

  TESTIMONY OF STEPHEN SKURNAC,\1\ PRESIDENT, SIMS RECYCLING 
                        SOLUTIONS, INC.

    Mr. Skurnac. Thank you very much, Mr. Chairman, and thank 
you for the opportunity to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skurnac appears in the Appendix 
on page 109.
---------------------------------------------------------------------------
    My name is Steve Skurnac. I am the President of Sims 
Recycling Solutions, and by way of background, Sims is the 
largest e-recycler in the world. We process approximately 1.4 
billion pounds a year of e-waste in 42 facilities in 14 
countries.
    In the United States, we have 12 facilities. We have about 
2,000 employees here in the United States.
    So e-recycling is a big job creator. It is a big industry 
on a global basis, and it presents significant opportunities 
for further business growth.
    As you have heard from the other speakers, though, it is 
not without a significant amount of complexity and an awful lot 
of issues, particularly domestically here in the United States, 
and I will try and address some of those today without 
reiterating the points that have already been made.
    We have had comments about the size of the marketplace. The 
numbers are all over the map, but nonetheless, the United 
States is estimated to generate anywhere from 5 to 10 million 
tons a year of e-waste, and a lot of that still remains in 
storage for the reasons you have heard. There is not an 
incentive to bring it out into the marketplace for recycling.
    This is significant because electronic scrap presents 
significant opportunity to recover valuable commodities from 
the material contained therein. There is also significant 
opportunity for businesses and consumers to benefit from reuse 
of equipment. It is refurbished, repaired, put back into the 
marketplace, either domestically or in developing markets where 
they do not necessarily have access to that technology.
    The issue, though, that has to be understood is that 
electronics, particularly older equipment, does contain 
hazardous components that need to be removed in a responsible 
recycling environment. Otherwise, they can cause significant 
environmental harm if it is not recycled responsibly. And that 
makes the issue a bit more complex and turns it more from a 
pure commodity collection and recycling into something that 
requires a sophistication of service offering and certainly 
some scrutiny in terms of how the material is actually recycled 
in the marketplace.
    Now, with the notable exception of the United States, most 
developed countries in the world actually have Federal rules 
designating electronic scrap as some type of special waste 
within their economy.
    And what that means is they arrange for it to be collected 
on a mandatory basis. It is banned from landfills. There are 
mechanisms in place to have it recycled domestically in those 
countries. And there are pretty rigorous reporting requirements 
to go along with it. And that is an environment that I say we 
operate in generally except in the United States.
    Now, in the United States, the only rules that apply from a 
management point of view, as Walter indicated, apply to cathode 
ray tubes, where recycling rules and export rules are very 
strict with respect to that material.
    So there is still an awful lot of room to work on 
regulatory perspectives because what we have ended up with is a 
patchwork of State mandates which are creating confusion for 
consumers, certainly difficulty for manufacturers of equipment 
and, frankly, difficulty for recyclers having to juggle and 
jump back and forth between jurisdictions that have different 
rules applied to them.
    If it is not being stored, it has three homes. Obviously, 
it can end up in a landfill. There are many States in the 
United States that still allow landfill of e-waste. It can end 
up with a domestic recycler, or of course, it can be exported 
for recycling out of the country, typically to developing 
countries.
    If it ends up with a domestic recycler, typically, it will 
be handled in a very responsible fashion because there are two 
certifications available to recyclers in the country, both of 
which have very high standards and both of which will indicate 
to consumers and to manufacturers that those recycling 
companies have achieved a very high level of sophistication in 
their operation and that the material will be handled in a 
responsible fashion.
    And you have heard through the Executive Order that there 
was a mandate that the government agencies must use certified 
recyclers to manage e-scrap coming from Federal agencies.
    There is no doubt that the volumes are continuing to grow 
around the world and in the United States, but the outlook for 
electronics recycling is not as rosy as simply saying that 
volume will continue to grow, the reason being is that the 
material----
    Chairman Carper. When you say volume, are you talking about 
the volume of materials that can be recycled or the volume of 
materials that have been recycled?
    Mr. Skurnac. No, the volumes that are coming into the 
market to be recycled, so discarded electronics that consumers 
are bringing out.
    The single biggest issue that we have domestically in the 
United States--and Walter has alluded to this--is the 
collection incentive; that is, to get this material that is 
stored in homes into the recycling chain, into the hands of 
recyclers.
    The cost of it is exorbitant, and it is not something that 
you can simply say, well, the manufacturer should pay for it; 
consumers should pay for it; recyclers should pay for it.
    It is a complicated issue because it depends where it is. 
It depends how much cost is involved in recycling it. It 
depends what kind of material is being recycled.
    Obviously, from a recycler's point of view, if we see cell 
phones, laptops, and old computer units, that has a significant 
amount of inherent value associated with it. If we get 
televisions, if we get old printers, there is not enough 
commodity value, or in fact, there is a negative commodity 
value associated with it. So, suddenly, the cost of acquiring 
that material and getting it through the recycling chain has a 
real bearing on how much of the material actually gets 
collected on an ongoing basis.
    The other item that I think government needs to consider--
and certainly, all consumers should as well--is that in today's 
technology everything that we tend to carry around in our 
pockets or have in our home contains a significant amount of 
personal or private data. And, when that material is discarded, 
it is critically important that the consumer or corporation or 
government agency understands how that data will be erased from 
the equipment and not end up being sold into foreign markets 
where, whether it is private information of consumers or 
private information from the government, it ends up being 
discoursed in a public way because it simply was not managed 
properly.
    So, fundamentally, I think we are faced with some key 
discussion points.
    What government-led programs, in addition to the ones that 
are in place now, should be initiated to further collection and 
to drive more recycling infrastructure in place?
    What do we do with the notion of e-waste going into 
landfills domestically because it is still a viable route in a 
lot of States in the United States? And there are many 
arguments back and forth about whether that is a viable route 
for this material from a treatment point of view.
    And how do we protect consumers and businesses from 
unwanted leaks of private information through the recycling 
supply chain when material does go out and consumers that do 
not have the sophistication or have not taken care of erasing 
all of that private information that they have on all of their 
devices?
    So we would really like to continue this discussion on an 
ongoing basis, both with the Committee and with members of 
government because we think that all of the stakeholders--
manufacturers, recyclers, Federal, State and government 
agencies and environmental groups--all have a vested interest 
in doing a better job of recycling and figuring out a path 
forward.
    Thank you.
    Chairman Carper. Thank you, Mr. Skurnac.
    Let me start with the first question to you, if I could. 
How old were you yesterday?
    Mr. Skurnac. How old was I?
    Chairman Carper. Yesterday.
    Mr. Skurnac. Yesterday? Fifty-three.
    Chairman Carper. And today?
    Mr. Skurnac. A day older, sir. Fifty-four.
    Chairman Carper. Happy birthday.
    Mr. Skurnac. Thank you very much.
    Your staff did a good job. Thank you.
    Chairman Carper. No, I knew this. [Laughter.]
    Mr. Skurnac. I could not think of a better way to spend my 
birthday. Thank you.
    Chairman Carper. I bet you could, but we are delighted you 
are sharing it with us.
    I want to drill down, if I can, on the role of the Postal 
Service and whether or not there is the kind of opportunities 
that I hope there is.
    But before I do that, let me just say that I have been very 
much involved in past years in strengthening Corporate Average 
Fuel Economy (CAFE) standards, fuel efficiency standards, for 
cars, trucks and vans. Several of you mentioned that the 
Federal Government--and maybe other governments as well--us, as 
individuals, have a responsibility to set an example. It should 
not be like do as I say but do as I do.
    When we were working with fuel efficiency standards, we 
said, what is the role of the Federal Government to try to make 
sure that when these vehicles are made, created by 
manufacturers and car companies, somebody is going to buy them.
    So we said, well, one of the things we could do is buy some 
ourselves to help create a market.
    Another thing that we could do is to offer tax credits. If 
somebody buys a highly energy efficient vehicle, then they get 
a tax credit to help buy down the price of the car.
    Those were the kinds of things that we thought we could do.
    I am trying to think about how we do the same kind of thing 
here to make a market. What is the role for the government to 
contribute and to be responsible legislatively, with our tax 
code, our regulations, just setting a good example?
    I want to come to you, Mr. Day, for the second question, 
and that is I just want you to explain to me.
    Let's say if I were a private citizen and I was not one of 
the Federal agencies that you mentioned.
    Did you say there were 11? Eleven Federal agencies that are 
involved in this project?
    Mr. Day. Yes, Senator, 11.
    Chairman Carper. And did you say one was Interior?
    Mr. Day. I can give you the full list if you want.
    Chairman Carper. All right, real quickly.
    Mr. Day. Read through it quickly? OK, the Postal Service, 
Department of Interior; Federal Aviation Administration (FAA); 
Department of Agriculture (USDA); Department of Energy; 
Alcohol, Tobacco and Firearms (ATF) ; Housing and Urban 
Development (HUD); Federal Energy Regulatory Commission (FERC); 
Department of Homeland Security (DHS); Small Business 
Administration (SBA); and Department of Commerce.
    Chairman Carper. All right. Now, if I had a member of my 
family who worked at one of those agencies, could they 
participate in the program?
    Mr. Day. Yes, Senator, absolutely. I have done it myself. 
It is very easy to use.
    Chairman Carper. Just explain it very simply. How does it 
happen?
    Mr. Day. This is the key. We need to communicate.
    So what we do is we send the information out. You can 
actually Google it and find your way there.
    It is on the Postal Service website. So, if you were to 
Google Federal recycling, you would go straight there. But, on 
top of that, we communicate out what the link is.
    Once you go to the link, very easy. It is going to ask you 
what agency you work for to confirm that you work for one of 
these 11 agencies. It will then ask you to simply certify yes, 
I work for this agency.
    It will then ask you for--on the next web page will be your 
name and address information because we are going to then 
connect you to print a shipping label that will allow you, free 
of charge, to ship whatever item you are sending back to the 
vendor. It will ask that.
    And then the next thing it will ask you is, what do you 
want to ship?
    Now what I have personally used it for are printer 
cartridges and for some old hard drives that I did not need any 
longer, and those are two separate things.
    And it will tell you how to package it, give you the 
shipping label, put it on the box.
    And then the final step on the final page is it will ask 
you, would you like to schedule a delivery, or if it is small 
enough I can just put it out in the box for my carrier to pick 
up with the rest of the mail that day.
    It is very simple.
    Chairman Carper. When you say schedule the delivery, what 
does that mean?
    Mr. Day. So, if you are concerned about what you have in 
that box, particularly if it might be a laptop, a tablet, or a 
hard drive, you can actually, through the Postal Service--it is 
connected to our website--schedule one of our letter carriers 
to come pick it up.
    Chairman Carper. OK. All right.
    So we schedule a pick-up, not a delivery?
    Mr. Day. I am sorry. Yes.
    Chairman Carper. All right. Good. OK.
    How is it going?
    Mr. Day. It is going slow. As I indicated, since we 
started, we have about 15,000 items. We would have hoped to be 
beyond that.
    I think it is what some of the other witnesses testified. 
It is about awareness. It is getting people to do it.
    It is about perceived value of the item. I, personally, 
will tell you I am guilty. I have some electronic goods in my 
basement that are completely out of date, and yet, if I wanted 
to, I could plug them in and turn them on and still use them 
though I will never do that again. So I have just got to bring 
myself to do it.
    So we have to get past that with a lot of people, but I 
think what we are offering is making it easy. And that is 
another part of it, just making it convenient.
    Chairman Carper. Let me ask our other four panelists. Just 
stay focused on the Postal Service for now and think out loud 
about how this could be made more successful. And I do not 
care--Ms. Pulley, you go first.
    Ms. Pulley. Well, it is one of the things that we do. We 
have various national programs.
    And we spend a lot of time thinking how best to communicate 
to individuals the recycling opportunities and to make them 
feel that it is easy. So I think there are potentially 
opportunities to work with the Post Office to help communicate 
that not only to government employees, but I think more broadly 
to the public.
    So maybe you get something in the mail that tells you about 
the program. You go to the Post Office, and you see it 
advertised. Your neighbor then talks about it. It is those 
kinds of things.
    Chairman Carper. Your organization may already be 
coordinating and collaborating with the Postal Service on this 
pilot. Are you? If so, how? And, if not, is it something you 
might consider?
    Ms. Pulley. We currently are not. In all fairness, though, 
we have had one conversation about it because I, personally, 
did not realize it until a couple of months ago that they were 
offering this. And so it is something that we will definitely 
pick up.
    I mean, there are things like America Recycles Day, which I 
know you are aware of, but there are opportunities that we can 
clearly leverage to raise the visibility.
    I am happy to followup and explore those opportunities.
    Chairman Carper. Others, please. Mr. Kampschroer.
    Mr. Kampschroer. I think two things.
    I think from an individual's point of view there is a great 
hesitancy to give up a machine that has data on it. So the 
knowledge of how the data are protected through this whole 
period so that I can feel very comfortable as a person saying, 
OK, I have not wiped all of my kids' stuff off of the computer 
that I no longer use--I can rely that this chain of custody 
exists all the way through the recycler.
    I happen to know this myself, but I can tell you that most 
of the people in my neighborhood do not.
    I think there is a second opportunity, which is especially 
in the States that have requirements and have recycling and so 
on, to get them to be the messengers. And I think they would be 
motivated to do that because every piece of equipment that they 
do not have to recycle reduces State and local government 
expenses.
    And I think that this is an opportunity to really get more 
of a national understanding of how the Postal Service can be 
the connector for a more national approach to the management of 
the waste.
    So those are a couple of thoughts.
    I think it is, I have to say, a terrific program. I would 
love to see it available for everybody and not just Federal 
agencies and their employees.
    Chairman Carper. Thank you. Mr. Alcorn.
    Mr. Alcorn. Thank you.
    Our focus is primarily in the consumer market. And, 
although the Postal Service's program does go somewhat into the 
consumer market, we really have focused on the larger devices 
and making sure there are opportunities for the heavier----
    Chairman Carper. Before you do that, again, just go back to 
my question. I want you to think out loud.
    We have a lot of smart people at this table. Just think out 
loud on maybe some perspectives or some ideas that the Postal 
Service has not thought of.
    Mr. Alcorn. Well, that is actually my point. There are a 
lot of people that are trying to collect the smaller devices, 
like what the Postal Service is doing.
    It is a pretty competitive market, particularly when you 
talk about the newer mobile devices. Pretty much every major 
retailer has trade-in programs, and so we are actually seeing 
sort of a sea change on the smaller devices where actually 
somebody will pay you for them.
    So I think beyond the Postal Service's program for the 
Federal agencies--I think getting out in the consumer market; 
we welcome it. We would love to see that happen.
    We encourage all opportunities for consumers to recycle, 
but it is going to be a little bit of a competitive 
marketplace.
    Chairman Carper. OK. All right. Mr. Skurnac.
    Mr. Skurnac. Thank you.
    Well, I have one idea, and Tom may have thought about it 
from a Postal Service point of view, and it relates a bit to 
what Walter said. Instead of going door to door as they do--
obviously, they are there delivering the mail every day--if 
they had their postal stations set up as drop-off points in the 
community, you give consumers an opportunity to bring bigger 
and bulkier items on their own, if they can, down to the postal 
station where you can consolidate it.
    Now, of course, the Postal Service is running trucks 
throughout their massive network across the country every day. 
Continue to consolidate and bring bigger volumes of this stuff 
back to regional distribution centers where certified 
recyclers, qualified recyclers, with the Postal Service, now 
have access to large quantities of material that the Postal 
Service has effectively done the consolidation for them along 
the way.
    That actually takes the bigger, bulkier, older stuff out of 
the household, which tends to be more problematic than some of 
the smaller, lightweight, easier to sort of hand pick-up 
equipment.
    Like I say, they may have already thought about that. I do 
not know. But that is certainly something that comes to my mind 
given the incredible distribution and reverse logistics network 
that they have available to them.
    Chairman Carper. Mr. Day, would you just react to some of 
these ideas, and feel free to say those are the worst ideas I 
have ever heard.
    Mr. Day. Senator, I will not say that.
    I will start in reverse. I think it is a very interesting 
concept of not just using our network to the individual 
household but also our 33,000 retail facilities. We have 
actually done some of that, but it still has been focused on 
smaller products. The larger products would be an interesting 
opportunity.
    We certainly do have the reverse logistics and the 
transportation in place, but in general, the volume, the size, 
the weight of what we handle is 70 pounds or less on an 
individual package basis. It would be a bit more experimental 
to take a look at doing something bigger.
    I know from a personal standpoint my wife and I had to 
dispose of one of our original big-screen TVs. I happen to live 
in Fairfax County, Virginia, and it was rather expensive to get 
it picked up curbside. So we decided to transport it ourselves, 
but it was not the easiest thing, and even then it cost us a 
few dollars.
    So there certainly is a need out there. I know, as a 
citizen who has tried to do the right thing it is not always 
easy and it is not always cheap.
    Chairman Carper. All right. Do you want to react to any 
other ideas?
    Mr. Day. Certainly, we need to collaborate to get the word 
out, hopefully, as the legislation moves forward, if we do get 
some of the freedom and flexibility to expand this product, 
certainly beyond just the Federal Government to the State and 
local governments, but really to get it to the individual 
consumer.
    What the program speaks of, and the lesson we have already 
learned from what we are doing in the Federal sector, is 
communication is the key. You have got to get the word out. You 
have got to make people aware of what it is, how it is and what 
the benefits are. That is the key, and so we are more than 
willing to collaborate with any group.
    So, within the Federal sector, to be more effective with 
the existing program, within the general industry and the 
individual consumers, to get the word out--that is the key.
    I find, as someone who was guilty in the past but now do it 
right, it is literally, how do you get people to that trigger 
point where they actually start to do it?
    And, once you do it and realize how easy it is, then it is 
just easier to do. But it is that first step of getting the 
stuff out of the basement, out of the garage, and properly 
disposing of it.
    Chairman Carper. I am just going to think out loud. Our 
sons, who are both Boy Scouts--turns out, Eagle Scouts. And I 
remember trying to figure out with them what their Eagle Scout 
projects would be, and I think there is probably a good Eagle 
Scout project in this.
    We celebrate, in Delaware, Earth Day every year, every 
spring, as we do across the country. And one of the things I 
oftentimes do is I will choose a particular focus for Earth Day 
and try to highlight that, and I could see us doing something 
like that in Delaware this year around electronic recycling.
    And there are probably any number of other ways--the idea 
of having this hearing, and we will do a fair amount of 
communications following up from the hearing.
    Senator Boozman who is my wing man, is a co-chair of the 
Recycling Caucus in the Senate. He and I can work together. We 
have some other folks that are in the Recycling Caucus, and 
maybe get them to sort of amplify the message.
    There is a lot that we can do, and it is not just the 
government that needs to do it.
    The 25 percent--and I do not care who answers this one, but 
the 25 percent or so of electronic stuff that we buy and 
eventually dispose of--obviously, only a fraction of it is 
going to be picked up by the Postal Service and transported by 
the Postal Service. We will say one percent because I know it 
is less than that.
    But just walk through for us the ways that the other 24 
percent would be handled. Some could be basically taken and 
sold if it is still good to use. Some could be stripped down 
and pull the components out and that sort of thing.
    But just give us some idea of that 24 percent that would be 
left. Roughly, how is it disposed of and reused?
    Mr. Skurnac. Yes, I will comment first, Senator.
    There are a number of ways that it gets collected. In 
States that have programs--as Walter indicated, half of the 
States now have State-run programs that mandate some form of 
collection and recycling of e-scrap.
    Typically, there will be collection entities. Some are 
private enterprises. In a lot of States, they are municipal-
county facilities, transfer stations, solid waste companies, 
that will collect the e-scrap as it is dropped off by 
consumers, and then they will deliver it to recyclers for 
processing. And, in some cases, private recycling companies 
will do their own collection, either through collection events, 
weekend e-scrap drop-offs or just have regular drop-off 
facilities in order to get the material.
    Some of it, unfortunately, is just exported as is out of 
the country. There is an export trade, if you like, where 
people will buy e-scrap and put it in ocean containers and send 
it overseas.
    There are two issues with that. One, of course, is there 
are domestic jobs that are not existing here in the country as 
a result of that, and two, nobody is really sure what is 
happening to it when it is exported. So we have to share that 
concern and sort of think about how we manage that going 
forward.
    The other way that material shows up to recyclers is 
through corporations that run their own recycling programs, and 
they go out of their way to take back their own products. And I 
will let Walter deal with that because it is a very viable and 
vibrant part of the industry where you have manufacturers who 
are taking on sustainability programs to go and collect their 
own equipment in the marketplace and take it back from their 
customers.
    Mr. Alcorn. Thank you, Senator, for the question.
    Chairman Carper. Sure.
    Mr. Alcorn. I think one of the things that we have seen 
develop over the last few years is an expansion of the 
collection infrastructure. Like in my testimony, we now have 
8,000 different locations around the country that our industry 
sponsors.
    If you have electronics, I would recommend going to 
GreenerGadgets and looking for a place nearby where you can 
recycle. For example, Best Buy will take back all your 
electronics at no charge at this point. So, in all----
    Chairman Carper. Roughly, how long have they been doing 
that?
    Mr. Alcorn. They started about 5 years ago. They used to 
charge $10 for the bigger stuff. They dropped that, I believe, 
3 years ago.
    Chairman Carper. They dropped it entirely?
    Mr. Alcorn. Dropped it entirely, so there is no charge.
    Chairman Carper. Why do you suppose they did that?
    Mr. Alcorn. Well, they figured out how to incorporate this 
into their business model, which is something we encourage 
companies to do. They figured out getting people into the door 
is worth the pain and hassle and expense of running a recycling 
program.
    Chairman Carper. This reminds me of we have shared 
jurisdiction on cyber policy here in the country in this 
Committee.
    And a fellow from the National Institute of Standards and 
Technology (NIST), which has been very much involved in 
developing standards for helping us deal with cyber attacks, 
Pat Gallagher was his name, I think, and he testified here 
once. I think he said, when good business policy and good cyber 
policy are one and the same, we know we are on the right track.
    And it sounds like Best Buy has figured out how good 
business policy and good environmental stewardship can 
coincide. They are on the right track.
    Do you think other companies are looking at Best Buy and 
thinking maybe they are on to something?
    Mr. Alcorn. Yes. What has happened is some of the other big 
retailers have gotten into taking back smaller devices. And 
Staples, actually, they have gotten into the business of taking 
back computer equipment. They do not take back TVs, but they 
really do not sell TVs.
    So we look at those two companies as models that we 
encourage.
    Also, our nonprofits, like Goodwill that Brenda mentioned 
earlier and their partnership with Dell. A very strong----
    Chairman Carper. Would you explain that partnership, 
please?
    There is a Goodwill about a mile from our house. We visit 
them often.
    Mr. Alcorn. It is called the ReConnect program.
    Chairman Carper. I just took them a printer.
    Mr. Alcorn. Ah, and they took it? That is good. OK.
    By the way, in Delaware, you also have the Delaware Solid 
Waste Authority who has an excellent program and has for a 
number of years.
    Chairman Carper. I was just at their recycling center where 
they recycle all--we have single-stream in Delaware.
    We were going, oh, gosh, 30 years ago, to an earlier effort 
to try to do single-stream, and we just did not have the 
ability to sustain the operations of the facility and finally 
gave up on it. And we finally figured it out pretty well now.
    Mr. Alcorn. Well, specifically with the Goodwill----
    Chairman Carper. As you know, they do not put the 
electronics along with the stuff in single-stream, though.
    Mr. Alcorn. Right. That is right. That is a separate 
system.
    But the Goodwill program in working with Dell--that is 
something that has developed really over the last decade, and 
Goodwill will take computer equipment. Dell backs them up and 
helps cover their costs and also provides outreach and 
promotion for the recycling program.
    We like those business models very much. We like those 
efforts, and we are encouraging more.
    Chairman Carper. Who is your executive director, chief 
executive officer (CEO), or president of your association?
    Mr. Alcorn. Gary Shapiro is our CEO.
    Chairman Carper. Was Dave McCurdy ever your CEO?
    Mr. Alcorn. He was not. He was with a different 
association, but we know him.
    Chairman Carper. OK. Good.
    Anybody else? I have another question, but I want to make 
sure I have heard from everybody on this.
    Please, go ahead.
    Mr. Kampschroer. I just thought I would give you sort of a 
sense of the order of magnitude within the Federal Government.
    Chairman Carper. Yes, please, I would like to hear that.
    Mr. Kampschroer. So, in the last year we measured, about 23 
percent of the equipment was actually transferred to other 
agencies for further use, 23 percent again was surplussed and 
sold for parts or for reuse, 50 percent was given to schools or 
other educational----
    Chairman Carper. Fifteen?
    Mr. Kampschroer. Fifty.
    Chairman Carper. To where? Schools?
    Mr. Kampschroer. To schools. And then only 4 percent was 
actually recycled. So there is a lot of secondary use of 
equipment going on--of Federal equipment.
    Chairman Carper. When one of my sons was in college, he 
spent a summer working for Apple out in California, and the 
next year I was out at Apple and just wanted to visit with 
Visitor Operations and try to learn more about what they were 
doing. It was maybe--I do not know--4 or 5 years ago.
    And it was interesting during my visit at Apple. I stayed 
for an hour or two, and they spent the whole time just talking 
about the thought and the consideration they give to the 
materials that are in the equipment that they build and sell.
    Looking at this--and this is, of course, sustainability and 
what can be harvested from those devices when they are disposed 
of--I was struck by how much time and energy and thought they 
have given to this.
    I am sure there are other manufacturers who have a similar 
bent. Could you share some of those with us?
    Mr. Alcorn. I will take that one on. Thank you for the 
question, Senator.
    That is something that we have seen a number of companies 
step up--Apple is first and foremost, probably, on that 
particular issue--and spend a lot of time and effort to take 
care of their supply chain and the materials that are used and 
that go into their products.
    It is a very dynamic industry. The technology is changing 
very quickly. Innovation really powers the industry to move 
forward, and one of the innovations is something that I like to 
call dematerialization, where we are seeing products get 
smaller. Using less material.
    I mean, it used to be the big TV set in a console, and it 
was super heavy. And now they get hung on the wall, with better 
technology, better performance and using less energy.
    We actually have documented a number of case studies in a 
sustainability report that CEA published and I entered into our 
written testimony, that really talks about some of these 
examples, not just on the recycling side but also on design and 
energy efficiency and other issues like that.
    Chairman Carper. OK. Thank you.
    Anybody else want to say something before I change the 
subject just a little bit?
    [No response.]
    All right. I mentioned earlier fuel efficiency standards, 
CAFE standards, and what can the government do to try to make a 
market, that sort of thing.
    Let me just ask. I will not ask this for Mr. Kampschroer or 
Mr. Day but for Ms. Pulley, Mr. Alcorn, and Mr. Skurnac. What 
do you see as the role of the Federal Government, or the roles 
of the Federal Government, in this space? Do you want to go 
first, Mr. Skurnac?
    Mr. Skurnac. Well, at the risk of repeating the comment, I 
think it needs to lead by example, and I was very encouraged--
--
    Chairman Carper. Did you all just hear that clock back 
there making a noise? Are we back in session?
    All right. We are going to start voting pretty soon, but we 
are going to go probably another 10 to 15 minutes.
    Mr. Skurnac. I will just make one quick----
    Chairman Carper. No. You have plenty of time.
    Mr. Skurnac. One quick comment with regard to what Kevin 
was referring to--I think that getting the data from the 
government in terms of their efficacy of the Executive Order 
and the programs and what happens to the material, who is 
managing it, how it is being recycled and/or refurbished or 
reused will be terrific information for everybody to have 
access to because it will show us just how much traction the 
Federal Government on its own has with trying to do the right 
thing with the equipment.
    I mean, they are the largest purchaser of IT equipment and, 
by definition, the largest creator of e-scrap at the end of its 
useful life. So it will be very interesting and useful for all 
of us stakeholders and the industry to find out exactly what is 
happening with that equipment.
    Chairman Carper. All right. Thank you. Mr. Alcorn.
    Mr. Alcorn. Thank you.
    And I would just expound a little bit on an idea of a 
different type of affirmative procurement. There are--not just 
CRT glass, although CRT glass is the most obvious one. There 
are some materials coming out of the electronics recycling 
stream where there are not strong markets. There is not 
intrinsic demand in large measure.
    And I think that is something that is really called for in 
the Federal National Strategy from 2011--and that is something 
we would like to see the Federal Government step up their 
efforts really, to look to see where they could buy recycled 
materials in lieu of virgin materials, particularly for items 
like CRT glass.
    It is not obvious a lot of times if there is a fit, but 
certainly, we have seen some of that done already, and we would 
encourage more of it.
    Chairman Carper. Good. Ms. Pulley.
    Ms. Pulley. I would just add also, as the others have 
indicated, the leading by example.
    And one thing I would add, it has been mentioned a couple 
times, but I think also helping to inform constituents about 
the importance of it, as you do.
    But also, to make sure that the importance of using a 
certified recycler--I want to reiterate a point that was made 
earlier because it is so important with the data that are on 
personal electronic devices.
    Chairman Carper. I think I know why that is important, but 
tell us again.
    Ms. Pulley. Just because, as was mentioned earlier, when 
people have all kinds of financial data and other personal 
information, and then they turn over a computer to be recycled, 
if it is not with a certified recycler--I mean, there are 
horror stories about electronics being sold in third-world 
countries and not for the computer but for the data that are on 
the computer.
    So it is an issue that--as you continue this dialogue about 
what you can do, it is important to remember that one because I 
think there is some additional work to do in that area.
    Chairman Carper. I always look for ways to incentivize 
behavior. So, if we want to incentivize folks in other 
countries to pay top dollar for these items, we could sort of 
imply, or let them think, that there are data.
    Ms. Pulley. Maybe. Well----
    Chairman Carper. And then clean everything up and then sell 
it to them.
    Ms. Pulley. I totally like your line of thinking about 
incentivizing. We like that.
    Maybe we can talk about a study very specific to 
recycling----
    Chairman Carper. We call that bait and switch, I think.
    Ms. Pulley. But another one where there is the 
opportunity--Walter, I hope you do not mind--we want it to be 
embedded in the business model for manufacturers and retailers, 
and we are seeing that.
    But to continue to look for ways that it could also be 
communicated so not only is that convenience factor overcome, 
but there are various touch points in communication about 
recycling with the customer, as I said previously.
    When you go buy a new car, what is the first thing they ask 
you? Not how much you want to spend, but hey, have you got an 
old car to sell?
    And so just those kinds of things that we could work with 
manufacturers and retailers on that--those are the other things 
that I would look at.
    Chairman Carper. I have an old car, but I am not ready to 
sell it yet. My wife always says to me, when are you going to 
buy a new car?
    Ms. Pulley. What about those CAFE standards?
    Chairman Carper. It is a 2001 Chrysler Town and Country 
minivan, and I bought it the year that I stepped down as 
Governor, and it just went over 361,000 miles--original engine, 
original transmission, original owner.
    Someday we will recycle it, but not soon.
    Mr. Day, do you want to jump in here, or Mr. Kampschroer?
    Mr. Day. In terms of what the Postal Service can do?
    Chairman Carper. Well, we are talking about the role of the 
Federal Government in the space. We are trying to set a good 
example. We are trying to partner with the Postal Service.
    Anything else come to mind?
    Mr. Day. Well, I do not think you can stress enough that 
setting a good example. I think the President, through the 
Executive Orders, and what the Federal agencies are doing--it 
is just a matter of following through on that.
    And, as has already been said, it will be important to see 
that, and my understanding is we will see that on what the 
agencies do through the Council on Environmental Quality. We 
have an annual Office of Management and Budget (OMB) scorecard, 
and so that is dated, and it is out there.
    It is more than saying we are going to do it. We have to 
demonstrate we are going to do it.
    And I know the Postal Service is. We are not just promoting 
this to do it for other agencies, but we are doing it 
ourselves.
    Chairman Carper. OK, Mr. Kampschroer.
    Mr. Kampschroer. I think just one last point is really a 
reiterated one. The proposed rule that we will publish next 
week will require agencies to submit the data at a much more 
detailed level than is currently being collected and submitted. 
So we will have a much better handle on what the potential 
markets are, and that will allow the market to react with the 
potential for business opportunities.
    We found that to be true in Energy.Data.gov, where we have 
put our utility consumption data out there and have gotten 
private sector individuals who figured out ways that we had not 
figured out, how to more cost effectively manage the Energy 
budget.
    So, hopefully, the same thing will happen here.
    Chairman Carper. OK. Thank you.
    You hear that clock again making noise. That means that we 
are about 7 or 8 minutes into a fifteen-minute vote.
    I am going to ask one more quick question, and then we will 
leave the record open for additional questions from my 
colleagues and from me.
    But, the last question. I like to talk about the three Cs 
that are secrets to a vibrant, long marriage between two 
people--communicate, compromise and maybe collaborate.
    I think one of you mentioned three Cs that were similar, 
though. I think one was communicate. Was that right?
    Ms. Pulley. Absolutely.
    Chairman Carper. And I think another one might have been 
convenience.
    Ms. Pulley. Absolutely.
    Chairman Carper. And there was a third. What was it?
    Ms. Pulley. Cause, or the motivational factor.
    Chairman Carper. Cause, yes. OK.
    All right. Good.
    I will kind of relate to that and touch on that again but 
one of the biggest challenges that we face in moving ordinary 
Americans toward--what are some of the biggest challenges 
toward moving us toward a recycling-first mentality?
    And so, just think about that. Challenges. Lack of 
convenience. People do not even know about it, so lack of 
information.
    But think about that and then give us just some thoughts. 
When we have that old cell, or we have that old computer, or we 
have that old TV, not the cathode ray tube, but what is just 
maybe one good idea from each of you on how we can better 
ensure that people say, I am not going to just throw this away 
or whatever or leave it in the basement?
    Give me one great idea, Mr. Skurnac, on your birthday. This 
will be your gift to us.
    Mr. Skurnac. Well, I think the simplest thing we can do for 
those individuals is to impress upon them the fact that there 
is so much of their lives in that equipment that they have, and 
it does not need to stay in the garage or in their basement. It 
does need to be recycled because they are valuable commodities, 
and it makes a lot more sense to recycle it than to let it sit 
somewhere and collect dust.
    But, if that message gets out--and everybody today on the 
panel has talked about getting the message out.
    If the message gets out that says, look, we can recycle 
this. There are responsible people that can do it. We have an 
easy and convenient way to get it from you. You need to get rid 
of it and get the valuable components back into commerce--we 
will come a long way, absolutely.
    Chairman Carper. All right. Thank you.
    I just thought of an idea. In schools that our boys have 
gone to and then others we are aware of, we do recycling 
drives. We have done Campbell's Soup cans, with the labels and 
stuff. We have done newspapers and bottles and stuff like that, 
and aluminum cans.
    Have you ever heard of a school that has maybe 1 day a 
week, 1 day a year, or 1 day a quarter, something like that, 
where they invite folks to take stuff out of their garages and 
basements and bring it to the school, where they work with the 
solid waste authorities there to pick it up and take it out, 
and the schools make some money?
    Anybody? Is that too far-fetched an idea?
    Just very briefly because we are running out of time.
    Mr. Alcorn. Well, on electronics, I think that happened a 
lot in the past, or it happened some in the past, not so much 
recently.
    But I think you raise the schools issue, and that gets to 
my idea. I am not sure it is a new idea completely. But, 
frankly, getting recycling into the curriculum is really 
important. I mean, that changed the world in the late eighties 
when that happened with recycling in general, and that is 
something we have been working on a little bit at the Consumer 
Electronics Association.
    But when kids hear that, yes, these old electronics should 
be recycled and, hey, here is a way to find out how, and they 
bring that home to their parents, it makes a huge difference.
    Chairman Carper. OK. Good. Please.
    Ms. Pulley. I was just going to add.
    Chairman Carper. Just 30 seconds, and then I have to run.
    Ms. Pulley. I would just say it is--going back to your 
original question. We work with schools all the time. There are 
issues about the schools being drop-offs for electronics per 
se. We can talk about that at another time. OK?
    But I think turning up the volume, as we have said today, 
so that we make it a social norm. And there are many different 
pressure points that we could do that, whether it is curriculum 
or talking about it. Those are things that I continue to look 
at, but that would be my key recommendation.
    Chairman Carper. OK. Thanks.
    Mr. Day, just real fast.
    Mr. Day. I will just keep the theme. I mean, I have been 
very impressed with----
    Chairman Carper. You are on message. You are what we call 
on message.
    Mr. Day. It is what universities are doing today. I mean, 
colleges and universities--as I talk to the younger employees 
coming into the Postal Service, fresh off of university 
campuses, they get it. I think if there is anything we are 
going to see as the generations move forward; they do get it.
    And maybe it is our generation that has not gotten it yet, 
but we just need to keep pushing that.
    Chairman Carper. OK. Great. Thanks. Mr. Kampschroer, last 
word.
    Mr. Kampschroer. I think really emphasizing the value of 
something that has no value to the person. It has value 
elsewhere. So move it to where it has value. I think people get 
excited about that.
    Chairman Carper. Good. All right.
    Well, I just want to thank Mr. Kampschroer and thank you, 
Mr. Day. Thank you, Ms. Pulley. Mr. Alcorn, thank you for 
joining all of us for the celebration of the 54th anniversary 
of Mr. Skurnac's birth.
    What we hope to do here today, on this day, is to spread 
the news. Spread the good news that we are hearing about, and I 
am, frankly, excited about.
    And I thank you all for helping us to do that.
    The three Cs. Ms. Pulley, tell us the three Cs one more 
time.
    Ms. Pulley. Right. It is convenience that we have talked 
about a lot today, clearly communication, but then finding the 
right way and the right message to communicate, which is give 
the cause so you have an emotional connection.
    Chairman Carper. That is great.
    All right, the hearing record will remain open for 15 days. 
That is until March 14, at 5 p.m., for the submission of 
statements and questions for the record.
    With that, this hearing is adjourned.
    Again, our thanks to each of you. Happy birthday.
    [Whereupon, at 2:08 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
